                         CLOSEOUT FOR M93010004


     This case was brought to OIG on January 11, 1993, when
                         irectorate for               informed us
                         of the Department of              at the
                          ade allegations of misconduct. Attached
                            report, including its appendices, and
(2) NSF1s settlement agreement with the su6ject,' which explains
NSF1s disposition of this case.     These documents describe the
actions subsequently taken by OIG and NSF in this case.


cc:   Deputy AIG-0, IG




                              page 1 of 1
  REPORT OF INVESTIGATION INTO AN ALLEGATION OF MISCONDUCT IN
                    SCIENCE A N D ENGINEERING

                             SUMMARY

     The Off ice of Inspector General (OIG) has determined that Dr.
Virginia B. Sisson (the subject) of Rice University (the
university) committed plagiarism on two occasions in proposals she
submitted to NSF.      OIG has further determined that, on each
occasion, the subject plagiarized material from proposals that had
been sent to her in confidence by NSF for merit review. These
conclusions are based on an investigation performed by the
subject's university.     OIG recommends that NSF find that the
subject committed misconduct and take the following actions as a
final disposition in this case. The subject should be told that
NSF has made a finding of misconduct and should receive a letter of
reprimand from the NSF Office of the Director. For a period of one
year (starting on the date of NSF's final adjudication of this
case), NSF should debar the subject from receiving federal grants
or, as an alternative, NSF should enter into a voluntary exclusion
agreement of one year with the subject beginning from the date of
the institution's final adjudication of the case. For one year
after the debarment (or voluntary exclusion) concludes, if the
subject is a principal or co-principal investigator on a proposal
submitted to NSF, NSF should require the subject to ensure that her
department chairperson has signed an assurance stating that, on the
basis of the chairperson's reading of the proposal and to the best
of the chairperson's knowledge, the proposal does not contain any
plagiarized material.     For one year after the debarment (or
voluntary exclusion) concludes, if the subject is a principal or
co-principal investigator on a proposal submitted to NSF, NSF
should require the subject to certify in writing that she has
recently reviewed the definition of misconduct in NSF's Misconduct
in Science and Engineering regulation, that the proposal is free of
any misconduct, and that the proposal has been reviewed as
described above. For a period of three years, the subject should
be prohibited from serving as a mail or panel reviewer or as a
member of a Committee of Visitors.
                          OIG' S INQUIRY
     OIG received two separate and independent allegations of
plagiarism in proposals submitted by the subject and other
collaborating researchers. In both instances, the source text was
allegedly a proposal sent to NSF in confidence for merit review.
OIG's inquiry into these allegations indicated that they had
sufficient substance to warrant investigation. Our inquiry also
pointed to the subject, and not any of her collaborators, as the
person responsible for misappropriating the material in question-
OIGrs inquiry is summarized in our August 16, 1994 letter to the
university (Tab 1).
                           page 1 of   5
                                THE UNIVERSITY'S   INVESTIGATION
                  When OIG notified the subject's university of the results of
         I   our inquiry, the university asked that we delay our investigation
             while it undertook its own. On February 13, 1995, the university's
             Vice President for Graduate Studies, Research and Information
             Systems transmitted the investigating committee's report, a cover
             letter, and a copy of a letter from the university President to the
             subject explaining the university's final disposition of the case
             to OIG. These materials appear after Tab 2 .' OIG has examined the
             university's investigation report and believes that it is fair,
             accurate, and complete. We therefore recommend that NSF adopt the
             report's factual findings (45 C.F.R. S689.8 (a)).
                     OIG'S   CONCLUSION REGARDING MISCONDUCT IN SCIENCE
                  The subject on two occasions plagiarized material from
             proposals that had been sent to her in confidence by NSF for peer
             review by incorporating the material into her proposals without
             attribution. Both she and her co-principal investigators agree
             that she was-solely responsible for doing so.
                  NSF1s Regulation on Misconduct in Science and Engineering
             defines misconduct in part as a "serious deviation from accepted
             practices in proposingn research.    The regulation specifically
             mentions only three examples of misconduct, and one of these is
             plagiarism. Scientists generally consider plagiarism a serious
     '       violation of professional standards.
                  Plagiarism is generally understood to involve using the words
             or ideas of another person without giving appropriate credit. In
             each instance, over 2 0 0 words of text, spanning several paragraphs,
             contained plagiarized material. OIG believes that failing to give
             credit for this amount of material is a serious deviation from
             accepted practice and fits NSFfs definition of misconduct. The
             subject's university reached this same conclusion. OIG believes
             that NSF should endorse the university's finding.
                  NSF1s merit    review   process,    including    its   promise   of

I,                 he University did not send OIG the appendices to its
             investigation report because the relevant material in those
             appendices was almost all contained in the enclosures accompanying
             OIG1s August 16, 1994 letter (Tab 1). The one exception is that
             the subject reviewed and misappropriated text from an earlier
             version of one proposal than the one OIG originally sent to the
             university. In response to a request from the university, OIG
             supplied a copy of the relevant portions of the earlier proposal,
             annotated to indicate the passages that correspond to the subject's
             proposal.   This material, labelled NSF.13 in the university's
             investigation report, appears after Tab 3.
                                          page 2 of 5
confidentiality for proposals, is widely valued and respected in
the scientific community. The subject submitted two proposals to
NSF that made seriously inappropriate and wholly unauthorized use
of material sent to her for confidential merit review. In doing
so, she violated the integrity of the confidential merit review
process. OIG believes that this action is a serious deviation from
accepted practice and fits NSFrs definition of misconduct.
     OIG concludes that a preponderance of the evidence supports
the finding that on two separate occasions the subject incorporated
into her NSF proposals text from proposals written by other
scientists and sent to NSF in confidence for merit review. She did
not receive permission to do so, and she did not credit the
original authors of this material.      She acted knowingly. OIG
believes that her acts constitute plagiarism, violate the integrity
of NSF1s confidential peer review process, and therefore are a
llseriousdeviation from accepted practices in proposing" research.
OIG concludes that the subject committed misconduct as defined in
NSF1s Regulation on Misconduct in Science and Engineering and
recommends that NSF make a finding to that effect.
                  OIG'S   RECOMMENDED DISPOSITION
     Under § 689.2 (b) of NSF1s misconduct in science and
engineering regulation, upon making a finding of misconduct, NSF,
in determining what actions it should take, must consider the
seriousness of the misconduct. This includes considering the state
of mind with which the subject committed misconduct and whether the
misconduct "was an isolated event or part of a pattern." We have
explained why the subject's actions are a serious deviation from
accepted practice and hence are misconduct; this section explains
OIG1s recommended actions in light of our assessment of the
seriousness of the subject's misconduct, i.e. , our assessment of
how serious this instance of misconduct is in relation to other
instances.
      OIG believes that the source of the plagiarized material makes
this a very serious case. NSF mails proposals to scientists for
review in confidence and instructs reviewers that NSF "is
responsible for protecting the confidentiality of their contents."
NSF tells reviewers "not to copy, quote, or otherwise use material
fromtta proposal received for peer review. Many scientists rely on
NSF1s promise of confidentiality when they choose to discuss new,
undeveloped avenues of research in their proposals. In defiance of
NSF policy, the subject did not merely use such material, but
plagiarized it, and did so on two separate occasions. OIG believes
that the sheer fact of plagiarism from a proposal sent to NSF in
confidence, regardless of the content or originality of the
material that was plagiarized, breaches the integrity of NSF1s
confidential merit review process. If tolerated, the subject's
actions would undermine the scientific community's confidence in
NSF' s promise of confidentiality and in the agency's willingness to
                            page 3 of 5
enforce that promise.     We further believe that the subject's
actions demonstrate that she cannot be trusted to maintain the
confidentiality of the proposals sent to her.         We therefore
recommend that for three years N S F prohibit the subject from
serving as a mail or panel reviewer or as a member of a Committee
of Visitors, since in all of these capacities she would gain access
to proposals that had been sent to N S F in confidence.
      OIG believes that the existence of two separate incidents of
plagiarism also makes this a very serious matter.          Whatever
situational exigencies might mitigate a single instance of
misconduct, the repetition of misconduct cannot be treated lightly
or explained away. During our inquiry we examined only the N S F
proposals reviewed by the subject and those submitted by her; we
did not examine other materials that she either read or wrote.
Therefore, we lack further evidence of a pattern of misconduct. We
are confident only that the subject did not plagiarize from other
N S F proposals sent to her for peer review into her own N S F
proposals.
     The subject's failure to offer a full and frank explanation of
these incidents also makes this a serious matter.               The
investigating committee noted a number of facts that tend to
attenuate the seriousness of the subject's misconduct. The most
substantial of these, in our view, is that the ideas in the
plagiarized text were not original. But while the plagiarized
material is not original in the sense that it describes the
distinctive contribution of the proposed work, it is also not so
familiar and standardized that the PIS could have omitted the
plagiarized description and incorporated the content by reference.
It involves discussion of the combination of established techniques
that the PIS proposed to employ in carrying out their work. It is
material that PIS would normally work hard to state correctly and
in which readers would expect thoughtful discussion of how the work
would proceed.
     The university president weighed these facts in his
adjudication and concluded that the subject's actions were very
serious, as evidenced by the penalties he imposed on her. He
prohibited her from submitting research proposals of any kind or
accepting research support for projects in which she was the sole
investigator for a one year period. He barred her from engaging in
peer review of any kind for a two year period. He barred her from
receiving support for new graduate students for a one year period.
He froze her salary for a two year period. He issued a written
reprimand and promised immediate dismissal from employment if the
subject engaged in further misconduct.
     OIG believes that N S F should join the university in taking
strong action against the subject's misconduct. The university has
prohibited the subject from submitting research proposals of any
kind or accepting research support for projects in which she is the
                           page 4 of 5
sole investigator for a one year period.    We recommend that NSF
take the following actions:
          For a period of one year (starting on the date of NSF1s
          final adjudication of this case), NSF should debar the
          subject from receiving federal grants or, as an
          alternative, NSF should enter into a voluntary exclusion
          agreement of one year with the subject beginning from the
          date of the institution's final adjudication of the case
          (see 45 C.F.R. S620.105 (v)) . The debarment is a Group
          111 action (see § 689.2 (a)(3)(ii)).
          For one year after the debarment (or voluntary exclusion)
          concludes, if the subject is a principal or co-principal
          investigator on a proposal submitted to NSF, NSF should
          require the subject to ensure that her department
          chairperson has signed an assurance stating that, on the
          basis of the chairperson's reading of the proposal and to
          the best of the chairperson's knowledge, the proposal
          does not contain .any plagiarized material. This is a
          Group I1 action (see fi 689.2 (a)(3)(iii)).
  ,   (3) For one year after the debarment (or voluntary exclusion)
          concludes, if the subject is a principal or co-principal
          investigator on a proposal submitted to NSF, NSF should
          require the subject to certify in writing that she has
          recently reviewed the definition of misconduct in NSF's
          Misconduct in Science and Engineering regulation (45
          C.F.R. § 689.1(a)), that the proposal is free of any
          misconduct, and that the proposal has been reviewed as
          described above.     This is a Group I1 action (see §
          689.2 (a)(3)(iii)) .
      (4) For a period of three years (starting on the same date as
          the university1s final adjudication of the case), NSF
          should prohibit the subject from serving as a mail or
          panel reviewer or as a member of a Committee of Visitors.
          This is a Group I11 action (see § 689.2 (a)(3)(iii)).
      (5) NSF should send the subject a letter of reprimand, which
          is a Group I action (see S689.2 (a)(1)(i))   .
NSF should require that the subject send the Chairperson's
assurance and her own certification to the Assistant Inspector
General for Oversight in NSF1s Office of Inspector General for
retention in OIG1s.confidential file on this matter. We believe
these actions adequately protect NSF1s interest in upholding the
integrity of its proposal and award processes and are proportionate
to the seriousness of the subject's misconduct and to the actions
NSF has taken in comparable cases.


                            page 5 of 5
                           SETTLEMENT AGREEMENT

                                 RECITALS

A . In November, 1990 and June, 1991, Dr. Virginia B . Sisson, an
Assistant Professor at William Marsh Rice University (the
University), submitted grant proposal number-,             and its
revision,--            entitled
                                             -
          m"to the National
("Pronosal 1"). In December
                                     Science Foundation for funding
                                 1 9 9 2 . Dr. Sisson submitted qrant
\   --   -r----   -


proposal number                     b - ~ "
                                entitied
                                                                toI

the National science Foundation for funding ( ~ r o p o s -a6?.
                                                          a~     Both
proposals identified Virginia B. Sisson as a principal or co-
principal investigator.

B. NSF's Office of Inspector General ( O I G ) subsequently received
an allegation that Dr. Sisson committed plagiarism and violated
the confidentiality of the peer review process by copying
material from proposals which she had received from NSF as a peer
reviewer. Specifimlly, OIG received an allegation that Proposal


          OIG also received an allegation that Proposal 2
contained materials that had been copied fr
-previously              submitted to NSF by
The University informed OIG that it was inv
allegation.

C. After investigating the allegation, the University concluded
that Dr. Sisson copied-nearly verbatim 250 words of text in
Proposal 1 authored by                        which Dr. Sisson
had received as an NSF peer reviewer. The University also
concluded that Dr. Sisson copied nearly verbatim 225 words of
text in Proposal 2 from p r o p o s a l (No- 1      -)
an earlier version of N0.C-b)          which Dr. Sisson had
received as an NSF peer reviewer. The University concluded that
3r. Sisson did not indicate the material was taken from these
other proposals and did not give attribution to the original
authors.
D.. OIG then prepared an investigative report (OIG Case Numbers
M91020004 and M93010004) on this allegation and concluded that
both of Dr. Sisson's proposals contained text copied from the
original authors' proposals which Dr. Sisson had received as an
NSF peer reviewer. OIG concl-uded that Dr. Sisson had engaged i l l
plaqiarism and a violation of the confi.dentiality of the peer
review system and that such conduct constitutes misconduct i.i:
sdience under NSF's misconduct in science and engineering
regulation.
E:       NSF has determined that Dr. Sisson committed plagiarism and
v i . o l . a t e d the confidenti-ali-tyof the peer revi-ew process by
cop)".ng materials sent to her for peer review into her ow17 NSF
pvoposals. NSF has determined that Dr. Sisson's conduct
constitutes misconduct in science under NSF's misconduct in
science and engineering regulation.
                               AGREEMENT

After careful evaluation, Dr. Virginia B. Sisson and NSF agree to
settle this matter as follows:

1.  Dr. Sisson agrees to and has voluntarily excluded herself
from receiving federal and non-financial assistance and beneflts
under non-procurement and procurement Federal programs and
activities until February 6 , 1996. Dr. Sisson has not been an
applicant (principal investigator or co-principal investigator)
or among the senior, key, or supervisory personnel on a grant,
contract, or cooperative agreement for scientific, mathematics,
or engineering research or education with any agency of the
Executive Branch of the Federal Government through February 6 ,
1996.

2.  From February 7, 1996 until February 7, 1997, if Dr. Sisson
is aprincipal investigator or co-principal investigator on a
proposal submitted to NSF for funding, Dr. Sisson will obtain a
signed Assurance form the Department Chairperson stating that, on
the basis the Chairperson's reading of the proposal, the proposal
does not to the best of the Chairperson's knowledge, contain any
plagiarized material. Concomitant with submission of the
proposal, a copy of the Chairperson's Assurance will be sent to
the Assistant Inspect'or General For Oversight in N S F f s OIG, to be
placed in that Office's file for this matter.

3.  From February 7, 1996 until February 7, 1997, if Dr. Sisson
is a principal investigator or co-principal investigator on a
proposal submitted to NSF for funding, Dr. Sisson will certify in
writing that: ( a ) she recently reviewed the definition of
mi"sconduct in NSF's misconduct in scie,nce and engineering
regulation; (b) to the best of her knowledge, her grant
application is free of any such misconduct; and (cj that her
grant proposal has been reviewed by the Department Chairperson as
required by Paragraph 2 . Concomitant with the submission of the
Proposal, a copy of Certification shall be sent to the Assistant
General for Oversight in NSF's OIG, to be placed in that Office's
tile for this matter.

4.  Dr. Virginia Sisson is prohibited from sel-vi-ngas an NSF peer
reviewer, panelist, or member of a Committee of Visitors untll
February 6 , 1998.
5 . RSF will take no further-action a g a l ~ s t Er-. Sisson for her
actions in thi.s matter.
6 . T h i s agreement constitutes the entire agreement between the
parties regarding the above-described matter. No modification to
this Agreement shall be.valid unless written and executed by b o ~ h
parties thereto.
7. This Agreement terminates and settles this matter, and no
party may bring legal action regarding this matter except
concerning breach of this agreement.
8.  This Agreement will be null and void if it is not executed by
the Assistant Director for Biological Sciences within ten (10)
calendar days after the signing of this Agreement by Dr. Sisson.


\/ <r,-.
          'I

     ,(
Dr.Jirginia    Sisson



   ~ - 2 . -
Dr. ark E. Clutter
Assistant Director for
Biological Sciences
National Science Foundation
